        Amtrak                                              Office of
                                                            Inspector General
                                                                           www.amtrakoig.gov




Semiannual Report
to the United States Congress

                                                                                      Report No.
              April 1, 2012–September 30, 2012                                              46




                                                                                                                1
         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2011– March 31, 2012       1
Main Street Station, Richmond, VA
Table of Contents

From the Inspector General 	                                                                 3

OIG Profile 	                                                                                7

Amtrak Profile	                11	
		
Significant Activities: Audits	13

Significant Activities: Inspections and Evaluations	                                       25

Significant Activities: Investigations 	                                                   33

Ongoing Actions to Strengthen OIG Operations	                                              39

Performance Measures	                                                                      43

Appendices 	                                                                               44

	   Appendix 1–Questioned Costs (Audit)	                                                   44
    Appendix 2–Funds Put to Better Use (Audit)	                                            45	
    Appendix 3–Audit and Evaluation Reports	                                               46	
    Appendix 4–Corrective Action Not Complete (Audit)	                                     48	
    Appendix 5–Corrective Action Not Complete (Evaluations) 	                              50
    Appendix 6–Review of Legislation and Regulations 	                                     52	
    Appendix 7–Peer Review Results 	                                                       53

Glossary 	                                                                                 54

Reporting Requirements 	                                                                   55




      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   1
                                                                                             Union Station, Washington , DC




2   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                 From the Inspector General




                         National Railroad Passenger Corporation
                               Office of Inspector General




Pursuant to the Inspector General Act of 1978, as amended, I am pleased to provide the Amtrak
Office of Inspector General Semiannual Report to the United States Congress for the six
months ending September 30, 2012. This report highlights our significant audit, evaluation, and
investigative accomplishments that support congressional oversight and Amtrak’s accomplishment
of its strategic goals. It also addresses our actions to continually improve our operational
performance.


Significant Accomplishments

As part of our goal to become a model Office of Inspector General, I want to note that during this
period we achieved two—“firsts.” We issued our first audit report on issues related to oversight
of Amtrak’s independent public accountant and were selected to receive our first Council of
the Inspectors General on Integrity and Efficiency awards for the work of our evaluation and
investigation offices.

Additionally in direct support to the Congress, I testified twice before the Committee on
Transportation and Infrastructure, House of Representatives. On August 2, 2012, I testified
regarding our work on Amtrak’s food and beverage service, and on September 20, 2012, I testified
regarding ways to improve the efficiency and effectiveness of Amtrak’s operations and service that
can lead to financial benefits and help reduce Amtrak’s reliance on federal subsidies.

Also, our audit and evaluation offices continued to be productive. They issued 10 reports along
with the two testimonies; together they identified $6.4 million in questioned costs. The reports
included numerous recommendations to improve Amtrak’s efficiency and effectiveness, such
as recommendations to control the use of drugs and alcohol by employees in safety-sensitive
positions. Our investigative work also continued to focus on preventing and detecting illegal
activity and reported on significant fraud in the use of overtime. Examples of our audit, evaluation,
and investigative accomplishments during this period follow:

•	 We reported that Amtrak employees in safety-sensitive positions are testing positive for drugs
   and alcohol more frequently than their peers in the railroad industry. Amtrak was not exercising
   due diligence to control the use of drugs and alcohol by these employees. Amtrak management




                       10 G Street, NE, Suite 3W-300, Washington, DC 20002                              3
From the Inspector General




         concurred with our recommendations and established time frames for Amtrak to implement the
         recommendations. (Report OIG-E-2012-023)

     •	 We issued our first ever report addressing issues related to oversight of Amtrak’s Independent
        Public Accountant and determined that management carried out its responsibilities for oversee-
        ing the audit process in a generally effective manner; however, we identified opportunities for
        improvement. Amtrak’s Chairman, Audit and Finance Committee and Acting Chief Financial
        Officer agreed with all of our recommendations and stated that they are committed to imple-
        menting the necessary best practices we suggested to strengthen the company’s procedures
        related to the facilitation and oversight of the annual financial statement audit process. (Report
        OIG-A-2012-017)

     •	 We identified that accountability for program results and program-wide planning for the food
        and beverage program management could be improved. The company concurred with our rec-
        ommendations and is taking steps to improve program accountability and to develop a plan to
        reduce direct operating losses. (Report OIG-A-2012-020)

     •	 We found significant management control weaknesses in Amtrak’s hiring practices, in general,
        particularly, in its use of background investigation information. These weaknesses have led to
        the waste of resources and the hiring of employees with past performance or other concerns,
        creating risks to Amtrak’s passengers, employees, and operations. Management overall, with
        some exceptions, agreed with our recommendations and is committed to developing and imple-
        menting internal controls to strengthen policies and procedures. (Report OIG-A-2012-014)

     •	 In the investigative area, we continued to be productive in preventing and detecting fraud in
        areas such as excessive overtime, contracting and procurement, claims and healthcare fraud. For
        example, we reported on multiple employees who claimed and were paid at premium overtime
        rates for hours they did not work, the misuse of computer resources, and a pervasive lack of
        supervision by management officials. We also identified instances of insurance fraud, employee
        theft, and violation of corporate policies. The company acted quickly to address these issues.

     •	 In addition to criminal enforcement and monetary recoveries, our investigation programs focus
        on identifying areas in which Amtrak management can improve economy, efficiency and effec-
        tiveness. Our investigators made 17 specific recommendations to Amtrak management in such
        areas as improving internal controls to prevent waste and fraud in overtime, increased surveil-
        lance of employee use of company computers, enhanced controls over contracting processes,
        and better methods for sampling and testing locomotive diesel fuel. The company accepted all
        of these recommendations and has implemented, or is in the process of implementing them.




4                          10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                          From the Inspector General




Significant Actions Taken to Continually Improve Operations

Our efforts to continuously improve our operations included developing new products for internal
and external communications, strengthening external relationships through new outreach
meetings, developing new policies and procedures, upgrading data analysis capabilities, and
concluding the implementation of the recommendations made by the National Academy of Public
Administration.

I look forward to continuing to work constructively and professionally with Amtrak’s Board
members, its Chairman, its President and Chief Executive Officer, and Amtrak executives, along
with the authorizing, appropriations, and oversight committees of the Senate and House of
Representatives. My goal is to continually seek ways to improve both Amtrak’s effectiveness and
efficiency and the Office of Inspector General’s mission performance.

As I start my fourth year as Inspector General and reflect on our accomplishments over this time, I
want to acknowledge the effort of our staff for making all of this possible. The company’s effective
and efficient stewardship over its resources remain paramount in an increasingly constrained
federal funding environment. We will continue to identify ways to help the company in meeting
its stewardship responsibilities and support Congress in meeting its oversight responsibilities. As
Amtrak Inspector General, this is my commitment to you.




Ted Alves
Inspector General




                       10 G Street, NE, Suite 3W-300, Washington, DC 20002                             5
                                                                                                        South Station, Boston




6   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                                                   OIG Profile




OIG Profile
Vision, Mission, and Authority
Authority
The Inspector General Act of 1978 (Public Law 95-452, 5 U.S.C. Appendix 3),
as amended in 1988 (P.L. 100-504), established the Office of Inspector General
for Amtrak to consolidate existing investigative and audit resources into an
independent organization headed by the Inspector General to promote economy,
efficiency, and effectiveness; and to detect and prevent fraud, waste, and abuse.
Subsequently, the Inspector General Reform Act of 2008 (P.L. 110-409) amended
and strengthened the authority of the Inspectors General.

Mission
To provide independent, objective oversight of Amtrak’s programs and operations
through audits, inspections, evaluations, and investigations focused on
recommending improvements to Amtrak’s economy, efficiency, and effectiveness;
preventing and detecting fraud, waste, and abuse; and providing Congress,
Amtrak Management and Amtrak’s Board of Directors with timely information
about problems and deficiencies relating to Amtrak’s programs and operations.

Vision
The Amtrak (OIG) will operate as a model OIG, generating objective and
sophisticated products that add value. Utilizing modern infrastructure and
effective support systems, and following efficient, disciplined processes that meet
the standards of the accountability community, our diverse and talented team will
work professionally with, but independently from, Amtrak management.




                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   7
OIG Profile




                                Guiding Principles
                                Amtrak’s OIG’s guiding principles are important because they form the integrated
                                process to accomplish our mission and conduct our day-to-day operations:


                                                                           High Quality,
                                                                       Relevance, Timeliness




                                 Customer Service                                                                Innovation




                                                                            Principles


                                   Independence                                                                Respecting and
                                   and Objectivity                                                            Developing People




                                                                          Professionalism



                                •	 High Quality, Relevance, Timeliness—Provide valuable and timely service.
                                   Work products are of high quality, relevant, timely, add value, and are respon-
                                   sive to the needs of Amtrak and its stakeholders.

                                •	 Innovation—Be innovative, question existing procedures, and suggest im-
                                   provements. New ideas and creativity are fundamental to continued growth,
                                   development, and problem-solving.

                                •	 Respecting and Developing People—Create an environment that supports
                                   gathering, sharing, and retaining knowledge; fosters treating everyone fairly
                                   and with mutual respect through words and actions; ensures professional


8    Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                                                             OIG Profile




•	 growth; and values the diverse backgrounds, skills, and perspectives of em-
   ployees.

•	 Professionalism—Be committed to our professional standards and foster
   relationships with stakeholders that rely on communication and cooperation.
   Relationships with program managers are based on a shared commitment to
   improving program operations and effectiveness.

•	 Independence and Objectivity—Be committed to carrying out our mission
   with objectivity and independence, both in fact and appearance.

•	 Customer Service—Strive to be aware of the needs of stakeholders and
   work with Congress, Amtrak management, and Amtrak’s Board of Directors
   to improve program management.


OIG Organization
The OIG headquarters is based in Washington, D.C., with field offices, located in
Boston, Chicago, Los Angeles, and Philadelphia.



                                                     Inspector General
                                                      Theodore (Ted) Alves

                                                          Deputy
                                                     Inspector General
                                                          Thomas J. Howard




Assistant Inspector              Assistant Inspector                  Assistant Inspector              Assistant Inspector
      General                          General                              General                          General
       Audits                 Inspections & Evaluations                 Investigations                  Mission Support
  David R. Warren                       Calvin E. Evans                  Adrienne R. Rish                  Ronald Stith




                       General                      Quality Assurance &                 Congressional &
                       Counsel                        Internal Affairs                   Public Affairs
                    Colin C. Carriere                 Nancee K Needham                      Bret Coulson




                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   9
OIG Profile




                                The Inspector General provides policy direction and leadership for Amtrak’s OIG
                                and serves as an independent voice to Congress, Amtrak management, and Am-
                                trak’s Board of Directors by identifying opportunities and promoting solutions for
                                improving the company’s performance and economy and efficiency of operations,
                                while preventing and detecting fraud, waste, and abuse. The Deputy Inspector
                                General assists the Inspector General in developing and implementing the OIG’s
                                diverse audit, inspection, evaluation, investigative, legal, and mission support
                                operations.

                                Audits. The Office of Audits conducts performance and financial audits across the
                                spectrum of Amtrak’s support and operational activities. It produces reports on
                                those activities aimed at improving Amtrak’s economy, efficiency, and effective-
                                ness, while seeking to detect and prevent fraud, waste, and abuse. Audit activities
                                are focused on issues related to governance, to include financial management,
                                acquisition and procurement, information technology, human capital, and
                                American Recovery and Reinvestment Act-related activities. The group conducts
                                its work in accordance with generally accepted government auditing standards.

                                Inspections and Evaluations. The Office of Inspections and Evaluations conducts
                                evaluations of Amtrak programs and operations to identify opportunities to im-
                                prove cost efficiency and effectiveness, and the overall quality of service delivery
                                throughout Amtrak.

                                Investigations. The Office of Investigations pursues allegations of fraud, waste,
                                abuse, and misconduct that could affect Amtrak’s programs, operations, assets,
                                and other resources. Investigative findings are referred to the Department of
                                Justice for criminal prosecution or civil litigation, or to Amtrak management for
                                administrative action. The office develops recommendations to reduce Amtrak’s
                                vulnerability to criminal activity.

                                General Counsel. The General Counsel is responsible for providing legal assis-
                                tance and advice to OIG senior management and supports audits, evaluations,
                                special reviews, and investigations. Counsel coordinates with outside attorneys,
                                including local and federal agencies and law enforcement attorneys, and appears
                                in court on behalf of the OIG and its employees.

                                Mission Support. The Office of Mission Support provides financial management,
                                procurement, human capital management, administrative, information technol-
                                ogy, and communications expertise to support OIG operations.

                                Congressional and Public Affairs. The Office of Congressional and Public Affairs
                                serves as the OIG liaison to Congress and other government entities the media,
                                and the public, and conducts OIG outreach.

10   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                                                    OIG Profile




Quality Assurance and Internal Affairs. The Office of Quality Assurance and
Internal Affairs provides guidance and monitors the system of quality control for
audits and inspections and evaluations as well as conducts inquiries into allega-
tions of misconduct by or involving OIG employees.


Amtrak Profile
The National Railroad Passenger Corporation—Amtrak—is incorporated under
the District of Columbia Business Corporation Act (D.C. Code § 29-301 et seq.) in
accordance with the provisions of the Rail Passenger Service Act of 1970 (P. L. 91-
518). The Passenger Rail Investment and Improvement Act of 2008 (P. L. 110-432;
49 U.S.C. § 24302) reauthorized Amtrak and strengthened the U.S. passenger rail
network by tasking Amtrak, the U.S. Department of Transportation, the Federal
Railroad Administration, states, and other stakeholders with improving intercity
passenger rail service, operations, and facilities.

The company is operated and managed as a for-profit corporation providing
intercity rail passenger transportation as its principal business, but relies on
significant funding from the federal government to support operations and capital
investments. Congress created Amtrak in 1970 to take over, and independently
operate, the nation’s intercity rail passenger services. Prior to this, America’s pri-
vate freight companies ran passenger rail as required by federal law. Those com-
panies reported that they had operated their passenger rail services without profit
for a decade or more. With this in mind, Amtrak began service on May 1, 1971.


How It Works: Ownership and Contracting

Amtrak manages 20,000 employees and operates over a 21,100 mile system, al-
though over 20,000 of those miles of track belong to other companies, principally
freight railroads. Amtrak serves over 500 stations; of those it owns 63 station
structures, but also has at least partial responsibility under the Americans with
Disabilities Act for some component (i.e., station structure, platform or parking
lot) of approximately 390 stations.

Amtrak owns most of the maintenance and repair facilities for its fleet of about
2,650 cars and locomotives (including equipment owned by third parties). Out-
side of the Northeast Corridor (Boston to Washington, D.C.), Amtrak contracts
with freight railroads for the right to operate over their tracks. These host rail-
roads are responsible for the condition of their tracks and for the coordination of
all railroad traffic.


                       Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   11
                                                                                                      Pennsylvania Station, New York




12   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                       Significant Activities | Audits




Significant Activities:
Audits
During this reporting period, OIG issued two testimony statements and seven

audit reports, summarized below. The full reports may be accessed through

our website: www.amtrakoig.gov.


FOOD AND BEVERAGE SERVICE: Opportunities Exist to Build on Program
Improvement Initiatives
(OIG-T-2012-015, August 2, 2012)

On August 2, the Inspector General testified on our work on Amtrak’s food and
beverage service. Losses on food and beverage service have been a long-standing
issue at Amtrak. In fiscal year 2011, Amtrak reported a direct operating loss
of almost $85 million. Long-distance routes accounted for about $74 million
(87 percent) of these losses. Mr. Alves’ testimony focused on three areas:

1.	 Actions Amtrak has underway to address our prior recommendations to
    improve internal controls that have left food and beverage revenues and
    inventories vulnerable to fraud, waste, and abuse;

2.	 Preliminary observations from our ongoing food and beverage service
    audit that indicate that program improvement initiatives can be enhanced by
    consolidating the fragmented management structure, which is causing weak-
    nesses in program accountability and planning;

3.	 Best business practices work we plan to complete over the next six months
    to identify ways to help mitigate food and beverage operating losses.




                     Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   13
Significant Activities | Audits




                                Opportunities for Amtrak to Build on Its Initiatives to Improve Efficiency and
                                Effectiveness
                                (OIG-T-2012-022, September 20, 2012)

                                On September 20, Mr. Alves testified how improvements in the efficiency and
                                effectiveness of Amtrak’s operations and service can lead to financial benefits
                                and help reduce Amtrak’s reliance on federal subsidies. The company received
                                $562 million and $466 million from the federal government for operations in fiscal
                                years 2011 and 2012, respectively. The company also received $922 million and
                                $952 million from the federal government for general capital and debt service in
                                fiscal years 2011 and 2012, respectively.

                                Over the past couple of years, Amtrak has taken important steps to set a
                                foundation for improving its operational efficiency and effectiveness. At the
                                same time, Amtrak has opportunities to do more to improve its bottom line while
                                meeting the expectations of Congress and the American traveling public. The
                                testimony focused on three areas:

                                1.	 Initiatives Amtrak has underway to improve the efficiency and effectiveness
                                    of its operations and service.

                                2.	 Opportunities we have identified based on our recent work in which Amtrak
                                    can build on those initiatives to reduce federal subsidies.

                                3.	 Future work we plan to undertake to identify additional opportunities for
                                    Amtrak to become more efficient and effective.


                                ON-TIME-PERFORMANCE INCENTIVES: Inaccurate Invoices Were Paid
                                (OIG-A-2012-013, June 29, 2012)

                                The objective of this audit was to determine whether Southern Pacific
                                Transportation Company’s (the host railroad) on-time-performance incentives
                                invoiced to Amtrak from January 1997 through December 1999 were accurate.
                                Southern Pacific invoices to Amtrak for on-time-performance payments from
                                January 1997 through December 1999 contained certain errors. Although
                                Amtrak’s invoice-review process had detected about $1 million in errors, we
                                found additional errors that resulted in $1,430,113 in overpayments.




14   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                         Significant Activities | Audits




These additional errors went undetected and the invoices were paid because, as
previously reported, Amtrak did not have in place an adequate invoice-review
process during that period. As discussed
in a recently issued report, Amtrak is
making progress in improving its invoice-
review process. Amtrak’s Acting Chief
Financial Officer (CFO) agreed with our
recommendation to take action to recover
the $1,430,113 that, according to our audit,
Amtrak overpaid the host railroad.


HUMAN CAPITAL MANAGEMENT:
Weaknesses in Hiring Practices Result
in Waste and Operational Risk
(OIG-A-2012-014, July 19, 2012)

The OIG conducted this audit after
receiving a request from Amtrak’s
President and Chief Executive Officer
(CEO), to review issues related to the performance of background investigations.
Thorough and comprehensive background investigations are key to reducing the
risk that new employees are unqualified, dishonest, unreliable, or otherwise pose
a security risk. Further, recruiting, hiring, and training new employees is a costly
process, and ineffective background investigations can lead to waste of these
investments, if employees are terminated soon after being hired.

Our objectives were to determine whether, (1) Amtrak was making effective and
efficient use of background investigations to help ensure prospective employees
are qualified, honest, reliable, and do not pose a security threat; and (2) back-
ground investigation services were purchased in a manner consistent with
procurement policy.




                       Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   15
Significant Activities | Audits




                                Significant management control weaknesses exist in Amtrak’s hiring practices,
                                in general; particularly in its use of background investigation information. These
                                weaknesses have led to the waste of resources and the hiring of employees with
                                past performance or other concerns that create risks to Amtrak’s passengers,
                                employees, and operations. A review of hiring practices for 50 cases, with an
                                emphasis on the use of background information, showed that the practices did
                                not effectively help ensure that newly hired employees were qualified, honest,
                                reliable, and did not pose a security threat.

                                Human capital recruiters did not review background investigation reports
                                and did not compare the reports’ information to the employment applications’
                                information. Consequently, individuals were hired even though the background
                                report or other information raised concerns. In 38 of 50 cases, we found
                                inconsistencies between the employment application and the background
                                investigation which raised employment suitability questions, yet the applicant
                                was hired. In 18 of these cases, the individual was terminated for performance or
                                disciplinary reasons after a relatively short period of employment. In the other
                                cases, the individuals are still employed.

                                We recommended that the Chief Human Capital Officer revise human
                                capital policies to require that recruiters review background investigations
                                and applications prior to employment start and to verify that nothing in
                                the background investigation disqualifies the applicant from employment.
                                Specifically, human capital policy should require that background investigations
                                be completed, background investigation information be fully compared with
                                prospective employee applications, and prospective employees’ applications
                                claims be verified. We also recommended that the Chief Human Capital Officer
                                establish requirements for background investigations, conduct training for
                                employees involved in the hiring process, and award a contract or contracts to
                                ensure that they are completed in a timely manner and readily identify hiring
                                concerns.

                                In commenting on a draft of this report, Amtrak management stated that it is
                                committed to developing and implementing the necessary internal controls to
                                strengthen the company’s policies and procedures surrounding the hiring and
                                background investigation processes. Management, with some exceptions, agreed
                                with our recommendations. Management’s comments were generally responsive
                                to the intent of our recommendations.




16   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                        Significant Activities | Audits




CLAIMS PROGRAM: Use of Best Practices Would Strengthen Management
Controls
(OIG-A-2012-016, August 14, 2012)

The OIG conducted an audit of the management controls over the Amtrak claims
program. Our objective was to review the adequacy of management controls
over the claims program from initial receipt through settlement of claims. We
compared best practices for management controls with the Law Department’s
Claims and Tort Litigation Group’s (Claims Office) existing controls.
The Claims Office manages the program for settling claims against Amtrak by
employees, passengers, trespassers, and others; it also manages claims by Amtrak
for passenger trains and property damage caused by third parties. Our audit
focused on Amtrak’s policies, procedures, and management controls.
Our comparison of best practices with Amtrak’s management controls showed
that adopting some best practices can strengthen the management control
environment over the claims program. In commenting on the draft report, the
Vice President, General Counsel, stated that the Law Department and Claims
Office agreed with all our recommendations and have begun or planned to take
corrective action. The actions Amtrak has taken and plans to take meet the intent
of our recommendations.


AMTRAK INVOICE REVIEW: Undetected Errors Resulted in Overpayments
(OIG-A-2012-019, September 5, 2012)

The OIG conducted this audit because of previously identified control
weaknesses and the significant amount of money associated with Amtrak’s
service costs and on-time-performance incentive payments to host railroads. At
the time, our office had identified more than $79.5 million in overpayments and
potential recoveries disclosed in OIG audit reports issued since 1995. This does
not include the over $3 million identified in this report, but does include over
$19 million in overpayments that had already been collected. This report is part
of a series of OIG audits of Amtrak’s payments to host railroads.

The objective of this audit was to determine whether Union Pacific invoices to
Amtrak for service costs and on-time-performance incentives from January 2004
through June 2008 were accurate.

Union Pacific invoice amounts were not consistently accurate. The inaccuracies
occurred because invoices were not consistently calculated in accordance
with the operating agreement between Amtrak and Union Pacific or were
unsupported. In total, Amtrak overpaid Union Pacific about $3.5 million.


                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   17
Significant Activities | Audits




                                                                                                              Orlando, FL

                                The errors identified in this report do not include and are in addition to the over
                                $1.2 million in errors uncovered by Amtrak’s invoice-review process. Our review
                                of judgmentally selected Union Pacific invoices for the 54 month period (January
                                2004 through June 2008) disclosed Union Pacific overbilling of about $2.4 million.
                                In addition, errors for three cost components – General Administration, Commu-
                                nications, and Train Water—continued beyond the period initially reviewed. In
                                expanding the scope of our work to address this issue, we determined that Union
                                Pacific overbilled Amtrak about an additional $1.1 million from July 2008 through
                                December 2011, totaling the $3.5 million overbilled.

                                The billing errors went undetected because, as previously reported, Amtrak did
                                not have in place an adequate review process during this period. As discussed
                                in a report issued earlier this year, Amtrak is making progress in improving its
                                invoice-review process. The invoice overpayments affect Amtrak’s cash flow
                                and ability to effectively manage its activities. Further, these funds, had they
                                been available, might have been used in other areas or to reduce reliance on
                                federal subsidies. We recommended that Amtrak’s Acting CFO act to recover the
                                $3,473,737 that Amtrak overpaid Union Pacific.

                                Amtrak management stated that the report provides useful information and
                                indicated its intent to enter into appropriate conversations with Union Pacific.
                                Specifically, management stated that the Managing Deputy General Counsel, on
                                behalf of Amtrak’s Transportation and Finance departments, will pursue


18   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                        Significant Activities | Audits




any amounts that are recoverable under the law and within the terms of the
applicable operating agreements between Amtrak and Union Pacific. Additionally,
management stated that it remains committed to making valuable improvements
to the host railroad invoice administration review process, and continues to
progress with developing a process that facilitates complete and thorough
invoice reviews prior to payment. Management’s comments meet the intent of our
recommendation.


FOOD AND BEVERAGE SERVICE: Initiatives to Help Reduce Direct Operating
Losses Can Be Enhanced by Overall Plan
(OIG-A-2012-020, September 7, 2012)

Amtrak operates more than 300 intercity trains each day on the Northeast Cor-
ridor, state-supported routes, and long-distance routes. Most long-distance trains
include a full-service dining car, which serves hot meals for breakfast, lunch, and
dinner. Many state-supported and Northeast Corridor routes include a cafe car,
which offers sandwiches, snacks, and beverages. Over the last six years Am-
trak’s food and beverage service has incurred a direct operating loss of over $526
million. Losses in food and beverage have been a long-standing issue, requiring
federal subsidies to support food and beverage operations. Given the size of the
losses and continued need for federal subsidies, we reviewed Amtrak’s manage-
ment of its food and beverage service.

Our reporting objectives were to (1) determine whether opportunities existed to
improve food and beverage program management, accountability and planning,
and (2) follow up on actions taken in response to our June 2011 recommenda-
tions to reduce vulnerability to fraud, waste, and abuse.

We identified two areas where food and beverage program management could be
improved—accountability for program results and program-wide planning. We
believe these management weaknesses stem from a fragmented program man-
agement structure. Food and beverage activities are carried out by two depart-
ments—the Marketing and Product Development Department manages com-
missary and support operations, while the Transportation Department manages
on-board service personnel—but their activities are not well-coordinated.

On July 19, 2012, the Vice President, Operations, announced the establishment of
a Chief of Customer Service position within the Transportation Department. The
Vice President later stated that the Chief of Customer Service will have account-
ability for improving Amtrak’s food and beverage service program.




                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   19
Significant Activities | Audits




                                The Vice President added that Marketing and Product Development’s food and
                                beverage service activities will be transferred to Operations as of October 1, 2012.
                                We are encouraged by these recent developments and believe that once these
                                actions are fully implemented, Amtrak will have in place a more effective and ef-
                                ficient framework for managing food and beverage services.

                                Further, Amtrak has taken action or has plans to address two of the three recom-
                                mendations contained in our July 2011 report. First, Amtrak has established a
                                loss-prevention unit and has plans to develop an internal control action plan.
                                Second, while Amtrak has not taken any action on our recommendation to estab-
                                lish a pilot cashless project, Amtrak’s President and CEO indicated that Amtrak
                                will conduct a test of cashless sales. We support this planned action.

                                We recommended that Amtrak develop a five-year plan for reducing its direct
                                operating losses. The plan should include specific initiatives and annual operating
                                loss reduction goals while retaining needed services. In commenting on a draft of
                                this report, Amtrak’s Vice President, Operations, concurred with our recommen-
                                dation and stated that Amtrak will develop a plan within six months of filling the
                                Chief of Customer Service position and will provide the OIG an update at
                                that time.


                                AMERICAN RECOVERY AND REINVESTMENT ACT: Some Questioned Invoice
                                Charges and Minimal Benefit From Duplicative Invoice-Review Process
                                (OIG-A-2012-021, September 21, 2012)

                                On August 17, 2009, Amtrak entered into a contract with a project management
                                company (Jacobs) to provide program management services for 34 projects,
                                with a budget of $463.6 million. These projects were funded under the American
                                Recovery and Reinvestment Act (ARRA). The contract requires Jacobs to review
                                and approve invoices submitted by the design/build contractors. Amtrak also
                                hired another contractor, a joint venture between URS Corporation and CH2M
                                Hill, Inc. to provide program management oversight, including a second review
                                of design/build contractor invoices. Thorough and accurate review of invoices is
                                a critical management control to help avoid overpayment for services and avoid
                                unnecessary costs of recovering overpayments. Given the large value of design/
                                build contracts and the risk of significant overpayments from inadequate review
                                processes, we reviewed the adequacy of the processes for three ARRA contracts
                                valued at more than $158.8 million.




20   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                        Significant Activities | Audits




Our objectives were to determine whether the (1) costs billed by the design/build
contractors were adequately supported and allowable under the contracts terms
and conditions and (2) process to review design/build contractors invoices was
effective and economical.

Most of the invoiced costs were adequately supported and allowable for about
$35.7 million of the $158.8 million of invoiced costs that we reviewed. However,
we questioned about $1.2 million of the costs (3 percent) because they were
not adequately supported or allowable. We also found that Amtrak put in place
a duplicative and costly process to review contractor invoices that added little
value. This duplicative review process cost an additional $2.2 million.

Overall, the invoice-review process did not fully ensure that contractors adhered
to all contract terms and conditions, thus resulting in some overpayments. Fur-
ther, the duplicative review process that Amtrak established resulted in minimal
benefit. Since the contract has been completed, Amtrak cannot recover its costs
from this duplicative review process. However, it can take steps to ensure that
such a process is not established in any future contracts.

We recommended that Amtrak (1) recover over $1.2 million in questioned costs
identified in the report; (2) direct the program manager to review other ARRA
projects with significant rental charges to determine if all contract terms and con-
ditions were met; and (3) establish a policy that would prohibit the contracting
for invoice-review services that would duplicate other contract-review services.

In commenting on a draft of this report, Amtrak’s Acting CFO and Controller
concurred with our recommendations to recover questioned costs and review
other ARRA contracts and partially concurred with our recommendation regard-
ing duplicate invoice-review. We continue to believe that invoice review can be
adequately addressed under one contract.


ANNUAL FINANCIAL STATEMENT AUDITS: Observations for Improving
Oversight of the Independent Public Accountant
(OIG-A-2012-017, September 27, 2012)

Fiscal year 2011 represented the first year of OIG monitoring of Amtrak’s and the
independent public accountants (IPA) performance regarding the annual financial
statements and compliance audits. Effective oversight of the IPA and the audit
process can help ensure a high-quality audit and the efficient and effective use of
company resources.




                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   21
Significant Activities | Audits




                                Our objectives were to (1) gain an understanding of the company’s contract
                                solicitation, administration, facilitation, and oversight activities as they relate to
                                the IPA; and (2) identify best practices for the Audit and Finance Committee’s and
                                management’s consideration in overseeing the IPA and the audit process.

                                While management carried out its responsibilities for overseeing the audit
                                process in a generally effective manner, we identified opportunities for
                                improvement in the following areas as they relate to the IPA: (1) contract
                                solicitation documents, (2) proposal evaluation, (3) contract administration,
                                (4) audit facilitation, and (5) specific procurement guidance. As our work
                                                                            progressed, we shared our best practices
                                                                            suggestions with management, which has
                                                                            already implemented or is in the process
                                                                            of implementing many of them.

                                                                        To improve the Audit and Finance
                                                                        Committee’s and management’s
                                                                        oversight of the IPA and the audit
                                                                        process, we recommended that the
                                                                        Audit and Finance Committee, Amtrak
                                                                        Board of Directors, (1) approve the
                                                                        guidance developed in response to
                                                                        recommendation 5 (below) as part of its
                                                                        role to oversee the external auditors, (2)
                                                                        review and select for implementation, as
                                                                        appropriate, the best practices that we
                                                                        presented in Appendix IV of the report.
                                                                        We also recommended that the Acting
                                CFO and Controller should (3) complete implementation of the best practice
                                suggestions identified as Implementation in Progress in Appendices II and III of
                                the report; (4) provide more comprehensive training for the contracting officer’s
                                technical representative and task monitor; and (5) develop guidance for the IPA
                                procurement that addresses the unique requirements for procuring external
                                independent audit services.

                                The Chairman, Audit and Finance Committee, and the Acting CFO and Controller
                                stated that management and the Audit and Finance Committee are committed
                                to implementing the necessary best practices suggested by the OIG in order to
                                strengthen the company’s procedures related to the facilitation and oversight of
                                the annual financial statement audit process. The Chairman and the Acting CFO
                                agreed with all recommendations.




22   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                       Significant Activities | Audits




Ongoing Audits
During the next six months, the Office of Audits expects to complete work on
the following:

•	 A body of work (eight reports, of which four have already been issued)
   examining the accuracy of invoices submitted by host railroads for earned
   incentives deriving from on-time performance and services to Amtrak. The
   invoices reviewed cover varying time frames.

•	 An engagement to assess whether the IPA auditing Amtrak’s financial
   statements performed their audit in accordance with generally accepted
   government auditing standards, and to follow up on OIG’s fiscal year 2011
   recommendations.

•	 A review of Amtrak’s oversight and control over the use of overtime by
   Amtrak employees.

•	 A review of the adequacy of Amtrak’s capital program management practices.

•	 A report presenting our fiscal year 2012 assessment of the major management
   challenges facing Amtrak.

•	 A pre-award review of a contractor’s price proposal for the purchase of 40
   additional Acela coach cars.

•	 An audit report addressing financial and operational control weaknesses,
   such as duplicate payments to vendors. The methodology for this work will
   rely heavily on data analytics tools.

•	 A review focusing on identifying ways to help mitigate the food and beverage
   service’s direct operating losses by examining best practices used by other
   public- and private-sector entities.




                     Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   23
                                                                                                  Union Station, Cincinnati




24   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                       Significant Activities | Inspections and Evaluations




Significant Activities:
Inspections and Evaluations

During the Council of Inspectors General on Integrity and Efficiency’s

15th Annual Awards Ceremony on October 16, 2012, the Amtrak OIG

was recognized for the first time. The Amtrak OIG Acela Car Purchase

Evaluation Team received an Evaluations Award for Excellence citing an

innovative evaluation methodology identifying a $425 million (40 percent)

overestimation in additional revenue forecasted for an Amtrak capital

investment and prompting Amtrak to develop a new forecasting model.

  During this reporting period, OIG issued three evaluation reports,

summarized below. The full reports may be accessed through our website:

www.amtrakoig.gov.


MECHANICAL MAINTENANCE: Improved Practices Have Significantly
Enhanced Acela Equipment Performance and Could Benefit Performance of
Equipment Company-wide
(OIG-E-2012-008, May 21, 2012)

This report presents the results of our review of the actions Amtrak has taken in
response to our 2005 evaluation of Amtrak’s mechanical maintenance program.
Since our previous report, Amtrak has made significant progress in improving its
mechanical maintenance processes and procedures. For example, the company
adopted condition-based maintenance1 as the corporate maintenance philosophy,
analyzed the content of preventive maintenance using Reliability-Centered
Maintenance (RCM2) principles, and developed new standardized preventive
maintenance procedures for all of its major fleets of equipment. Amtrak also
developed a comprehensive quality

  1	   Condition-based maintenance is maintenance that is performed only when there is objective evidence of need.
  2	RCM—is      the methodology used to determine whether that objective evidence of need exists.




                                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   25
Significant Activities | Inspections and Evaluations




                                management program that redefined and revitalized quality management
                                operations, developed and started tracking a range of metrics to measure
                                fleet performance, and established several process-focused teams to improve
                                maintenance processes and drive other operational improvements. Furthermore,
                                Amtrak also significantly improved the capabilities and use of its computerized
                                work management system, implemented a life-cycle preventive maintenance
                                program for its diesel locomotives, and improved the availability of repair parts
                                through electronic material requisitioning and the expansion of automated
                                material vending machines at the major shops. Overall, Amtrak’s progress is the
                                result of management’s commitment and the hard work of many individuals in
                                the Mechanical Department, supported by the work of many others throughout
                                the company.

                                However, improvements in equipment performance have been uneven. Acela,
                                which represents about 10 percent of Amtrak’s total fleet of equipment and was
                                the first fleet where RCM was implemented, has seen significant improvements in
                                reliability and availability. These improved maintenance results allowed Amtrak
                                to deploy two additional Acela trainsets, generating over $50 million in additional
                                revenue since the trains were put into service.

                                In contrast, availability and reliability have remained the same or declined
                                slightly for the remainder of Amtrak’s equipment. Compared with Acela’s trainset
                                availability improvement of 14 percent, the availability of the rest of Amtrak’s
                                equipment has stayed roughly the same, and compared with Acela’s reliability


26   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                          Significant Activities | Inspections and Evaluations




improvement of 11 percent, the rest of Amtrak’s equipment is, on average, less
reliable than before.

Improving the reliability and availability of the conventional fleets to a
comparable level as that achieved with the Acela trainsets would result in
significant financial benefits to Amtrak and significant passenger experience
benefits to its customers. As with Acela, better reliability and availability
would lead to improved on-time performance. Not only would this directly
support Amtrak’s goal to improve customer satisfaction, but improved on-time
performance would also have an impact on increased ridership and ticket
revenue.

In addition, other financial benefits of improving maintenance practices are
clearly compelling. If the availability of the conventional fleets were improved to
the level of the Acela equipment, Amtrak could provide the same level of service
with over 120 fewer conventional cars and 45 fewer conventional locomotives
than presently required. Based on the estimates in Amtrak’s Fleet Strategy,3 this
would save Amtrak almost $600 million in fleet procurement costs over the next
15 years.4

We recommended that the Vice President for Operations develop goals for
improving the performance of Amtrak’s conventional fleet that support Amtrak’s
strategic plan; provide direction, support, and resources to achieve these goals;
and hold the Chief Mechanical Officer accountable for meeting the goals. We also
recommended that, in addressing those goals, the Vice President for Operations
and the Chief Mechanical Officer establish and implement an agreed-upon plan
for improving the performance of the conventional fleets that includes adopting
the Acela maintenance practices, as appropriate.

In addition we recommended that as part of the plan mentioned above, the Chief
Mechanical Officer develop a plan to fully address the recommendations from
our previous report that have not yet been completed. In commenting on a draft
of this report, management agreed with and has committed to taking actions
responsive to our recommendations.




  3	   Amtrak Fleet Strategy (Version 2), February 2011
  4	These    savings do not account for any additional costs potentially required to achieve this improved level of equip-
       ment availability.




                                 Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   27
Significant Activities | Inspections and Evaluations




                                STRATEGIC ASSET MANAGEMENT PROGRAM: Opportunities to Improve
                                Implementation and Lessons Learned
                                (OIG-E-2012-012, May 31, 2012)

                                The Strategic Asset Management (SAM) program is one of Amtrak’s highest-
                                cost and most significant information technology enhancement efforts. This
                                program, at an estimated cost of more than $193 million, is expected to help
                                Amtrak transform and improve key business areas; implement best practices;
                                integrate business processes; and provide timely information for financial
                                reporting, management decision-making, and optimizing financial and operational
                                performance.

                                The objectives of our evaluation were to (1) provide the status of ongoing
                                efforts to resolve SAM implementation issues, (2) identify the causes of SAM
                                implementation issues, and (3) provide recommendations based on lessons
                                learned to help improve the SAM implementation, and information technology
                                system implementations in general.

                                Although program managers anticipated a certain level of implementation issues,
                                the number, significance, cost, and time needed to address them all have been
                                greater than anticipated. The fact that significant issues continue to surface
                                indicates that the system is not yet stable. As a result, the company is still dealing
                                with adverse impacts on business operations and financial performance some
                                nine months after deployment.

                                The situation occurred primarily due to design and configuration shortfalls,
                                insufficient requirements-gathering and testing, inadequate training,
                                and underdeveloped user-support organization. Organizational silos and
                                communication gaps also contributed to the implementation issues. The
                                complexity of the design approach was an underlying contributor to the issues in
                                each area.

                                The dedicated work of many business users and the SAM team has helped to
                                address many implementation issues. Nonetheless, challenges remain, and the
                                time frame and cost needed to stabilize the new system, realize its benefits, and
                                transform business processes are uncertain.

                                We made a number of recommendations addressing the short-term, once the
                                system is stabilized, and for ongoing and future system implementation programs.
                                Amtrak officials agreed with all of our recommendations and cited ongoing and




28   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                      Significant Activities | Inspections and Evaluations




                                                                                    Kansas City, MO

planned actions. If properly implemented, the cited actions should address the
intent of our recommendations.


RAILROAD SAFETY: Amtrak is Not Adequately Addressing Rising Drug and
Alcohol Use by Employees in Safety-Sensitive Positions
(OIG-E-2012-023, September 27, 2012)

Federal regulations require that Amtrak maintain a program to control the use of
drugs and alcohol by employees in safety-sensitive positions. Federal Railroad
Administration (FRA) guidance implementing this regulation requires Amtrak to
randomly test at least 25 percent of these employees for drugs and at least


                     Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   29
Significant Activities | Inspections and Evaluations




                                10 percent for alcohol each year. Amtrak must also physically observe each
                                employee for signs and symptoms of drug and alcohol use once every three
                                months, on average. Amtrak has over 4,400 employees in these safety-sensitive
                                positions, including locomotive engineers, conductors, and train dispatchers,
                                and also some employees who maintain signals equipment and some employees
                                who operate locomotives within the mechanical yard or maintain locomotive cab
                                signal equipment. Amtrak estimates that it plans to spend about $1.5 million in
                                fiscal year 2012 administering its drug and alcohol program.

                                We initiated the evaluation to determine whether Amtrak is ensuring that its
                                employees in safety-sensitive positions are complying with federal regulations
                                governing the use of drugs and alcohol. Specifically, we evaluated (1) the extent
                                to which Amtrak’s random testing shows that its employees in safety-sensitive
                                positions are using drugs and alcohol, and (2) whether Amtrak is exercising due
                                diligence in controlling the use of drugs and alcohol by these employees.

                                Amtrak’s employees in safety-sensitive positions are testing positive for drugs
                                and alcohol more frequently than their peers in the railroad industry. Our analysis
                                of Amtrak’s random drug and alcohol test results shows that these employees
                                have been testing positive for drugs and alcohol at a rate that has been generally
                                trending upward since 2006, and this rate has exceeded the industry average
                                for the past five years. The majority of Amtrak’s positive tests since 2006 were
                                for drugs, primarily cocaine and marijuana. In 2011, Amtrak had 17 positive
                                tests for drugs or alcohol, which resulted in a combined positive test rate that
                                was about 51 percent above the industry average, its worst rate since 2007. The
                                2011 rate was driven by a relatively large number of positive tests by signals and
                                mechanical employees that were both over four times the rate of their peers in
                                the industry.

                                Amtrak is not exercising due diligence to control the use of drugs and alcohol
                                by these employees. Until we presented Amtrak’s key senior management with
                                our preliminary results, they were unaware of the extent of drug and alcohol
                                use by these employees. Further, senior management is not actively engaged in
                                the program, nor have they demonstrated that controlling drugs and alcohol is a
                                clear priority at Amtrak, thereby making it difficult to manage the risk that drug
                                and alcohol use poses to its employees, passengers, and the public. Amtrak also
                                did not adequately address, for several years, FRA’s concerns about Amtrak’s
                                program to physically observe these employees for signs and symptoms of drug
                                and alcohol use. Consequently, FRA has stated that it may elevate enforcement
                                actions against Amtrak up to and including fining Amtrak in the future if the
                                number of observations is not improved.




30   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                       Significant Activities | Inspections and Evaluations




Drug and alcohol misuse by Amtrak’s employees in safety-sensitive positions pos-
es a potential threat to employee, passenger, and public safety. These conditions
increase the risk that a serious accident will occur that involves drugs or alcohol.
The fact that this risk is not yet integrated into an enterprise-wide risk manage-
ment framework increases the likelihood that it will not be adequately addressed.

We recommended that Amtrak increase the rate at which it randomly tests these
employees, routinely review testing data, demonstrate that senior management
is engaged in the Drug and Alcohol program, ensure that the physical observa-
tion program meets or exceeds FRA’s program guidance, and ensure that its
supervisors are adequately trained in identifying signs and symptoms of drug and
alcohol use and that their training is properly recorded. Amtrak’s President and
CEO provided us with comments on a draft of this report wherein he concurred
with all our recommendations and established time frames in which Amtrak will
implement the recommendations. We consider his comments responsive to our
recommendations and will follow up on their implementation.


Ongoing Evaluations
During the next six months, the Office of Inspections and Evaluations expects to
complete work on the following evaluations:

•	 Positive Train Control (PTC). The Rail Safety Improvement Act of 2008
   requires the implementation of PTC systems by December 31, 2015, on all
   routes that carry passenger rail traffic. PTC systems are designed to prevent
   accidents, including train-to-train collisions, derailments resulting from trains
   exceeding safe speeds, unauthorized incursions into work zones, and move-
   ment of trains through switches left in the wrong position. The objective of
   this evaluation is to assess Amtrak’s efforts to implement positive train con-
   trol across the national system by the end of 2015. To accomplish this, we are
   identifying and analyzing the risks and challenges associated with implement-
   ing three different PTC systems, focusing on cost, schedule, and performance
   issues.

•	 Fleet Strategy. We are continuing our oversight of Amtrak’s fleet procurement
   plans by reviewing the revised fleet strategy that was published in March 2012
   to assess the degree to which the recommendations from our previous report
   were incorporated.




                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   31
                                                                                                              Union Station, Chicago




32   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                             Significant Activities | Investigations




Significant Activities:
Investigations

During this reporting period, an Amtrak OIG Special Agent was recognized

by the Council of Inspectors General on Integrity and Efficiency with an

Investigative Award for Excellence. The award was made in recognition of

the agent’s work on an extensive and complex investigation of civil fraud by

a contractor that failed to properly service Amtrak locomotives. The case

resulted in a $100,000 federal civil settlement.

  During this reporting period, our investigations resulted in three arrests,

nine indictments, and eleven administrative actions. We also had nineteen

case referrals accepted for possible criminal prosecution by the U.S.

Department of Justice or state prosecution authorities.

  Since April 1, 2012, the Office of Investigations has issued three

management reports which included a total of 17 specific recommendations,

all of which were accepted by management.


FRAUD: Overtime Fraud and Abuse in the Amtrak Communications and
Signals Department
(OIG-I-2012-018, September 5, 2012)

An investigation into allegations of overtime pay fraud by Amtrak Mid-Atlantic
Communications and Signals Department employees, determined that multiple
employees claimed and were paid at premium overtime rates for hours they did
not work.

We also identified other serious abuses, including misuse and potential theft of
property, misuse of computer resources, and a pervasive lack of supervision by
responsible agreement-covered (union) and management officials. Surveillance


                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   33
Significant Activities | Investigations




                                disclosed that one Amtrak employee worked an outside job while receiving
                                regular and overtime pay from Amtrak. This same employee used Amtrak email
                                inappropriately for outside work and to access dating websites. Our report to
                                Amtrak management and the Board of Directors included four recommendations.
                                Management agreed with all four recommendations. To date, three employees
                                were taken out of service; one employee retired, and another resigned.


                                Violation of Corporate Policies for Independent Contractors
                                (Report Dated August 27, 2012)

                                We issued a report to Amtrak management that several persons in the Amtrak
                                Office of Counsel and Claims Department circumvented Amtrak policy requiring
                                a written contract with independent contractors. We found that Amtrak paid
                                over $141,000 to a retired Amtrak claims representative to do work for the
                                Claims Department. The arrangement by which Amtrak paid this individual
                                was highly unusual. He was paid approximately three times the hourly rate he
                                earned as a claims representative at the time of his retirement from Amtrak for
                                doing essentially the same work. Investigation disclosed that a manager in the
                                Amtrak Claims and Tort Litigation group circumvented and violated Amtrak
                                Policy by directing persons on his staff and others to facilitate this individual
                                doing post retirement claims work without a written contract with Amtrak. The
                                arrangement included the use of two Florida law firms to provide “pass-through”
                                billing services for the former Amtrak employee. We found no indication that any
                                Amtrak employees (other than former employee himself) personally benefited
                                from this arrangement, however, we found that Amtrak oversight of the unusual
                                contract arrangement for the claims work performed and the billings were weak
                                or nonexistent. Our report included four specific recommendations that are
                                currently under consideration by Amtrak management.


                                Amtrak Diesel Fuel Sampling/Testing Procedures Need Strengthening
                                (Report Dated May 1, 2012)

                                We provided Amtrak a management information report on the need to strengthen
                                diesel fuel sampling and testing procedures. Our ongoing investigation into
                                possible substandard or contaminated fuel supplied by an Amtrak contractor
                                identified issues that warranted the attention of Amtrak management given
                                the potential for damage to Amtrak locomotives and risks to passenger safety.
                                Substandard fuel is the suspected cause of partial failures in locomotive fuel
                                injection systems and related mechanical problems that can contribute to service
                                disruptions, safety considerations and added costs. Amtrak management agreed
                                with all nine recommendations to improve fuel sampling and testing.

34   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                             Significant Activities | Investigations




Other Investigations
Amtrak Passenger Charged with Filing a Fraudulent Injury Claim
A truck ran a railroad crossing in Plant City, Florida and struck the Amtrak Silver
Star train. Passengers injured in the resulting derailment filed claims against
Amtrak. One passenger received a $20,000 payment from Amtrak. This passenger
also filed a demand for $87,000 and a civil suit against the trucking company
insurer to settle the matter. Investigation determined that the passenger was
in fact not on the train at the time of the accident, having disembarked earlier
in Lakeland, Florida. The individual was arrested and charged under Florida
statutes with two counts of insurance fraud and two counts of theft.

Amtrak Employee Uses GSA Fuel Credit Card for Personal Benefit
OIG investigated suspicious transactions involving a GSA credit card assigned
to an Amtrak vehicle. A review of the transaction records indicated that the card
was being used in multiple simultaneous purchases involving unusual random
odometer readings. Surveillance identified an Amtrak employee using the Amtrak
gas card to fuel personally owned vehicles. The suspicious fuel purchases totaled
$4,086. The employee resigned prior to a scheduled company administrative
hearing.

Employees Steal Materials from Amtrak Yards
An OIG investigation confirmed allegations that an employee of the Amtrak
Communications and Signals Unit was stealing electrical wire, scrap metal and


                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   35
Significant Activities | Investigations




                                other property and selling it to a recycling company. The employee was dismissed
                                after a company administrative hearing. The employee was also criminally
                                charged under Pennsylvania law with 12 counts of theft and 12 counts of
                                receiving stolen property. The stolen Amtrak property was valued at $17,602.
                                A similar investigation, conducted jointly by the Amtrak Police Department and
                                OIG, determined that five employees of the Communications and Signals Unit
                                stole Amtrak communications wire from several locations in Pennsylvania and
                                Delaware and resold it to recyclers. The stolen wire was valued at over $100,000.
                                Four of the individuals resigned and the fifth was dismissed following an
                                administrative hearing. All five individuals were indicted in U.S. District Court for
                                the District of Delaware on theft and conspiracy charges.


                                Former Amtrak Contractor Sentenced for Theft
                                Our prior Semiannual Report noted that a former Amtrak contractor was arrested
                                for illegally using an Amtrak Business Rail Pass to obtain over 50 tickets during
                                and after his assignment with Amtrak. The contractor had been issued a Business
                                Rail Pass for travel on official company business, but used it for personal travel
                                over a 14 month period. The company lost revenue associated with this travel.
                                During this reporting period, the contractor pled guilty and was sentenced to
                                90 days’ incarceration; the sentence suspended, and the contractor was placed
                                on unsupervised probation for 6 months. The contractor was ordered to make
                                restitution to Amtrak in the amount of $8,548.




36   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                             Significant Activities | Investigations




Employee Charged with Theft
OIG investigation of an employee for embezzling funds by falsifying travel
vouchers and manipulating Amtrak travel card and purchase cards resulted in an
arrest warrant and a criminal felony fraud charge in Superior Court of the District
of Columbia. The employee was fired. Court proceedings are pending.


Fraud Awareness Training
The OIG Office of Investigations and the Office of Audits have continued
a comprehensive program to deliver fraud awareness briefings to Amtrak
management, operations and support personnel. This proactive training is
designed to help Amtrak managers, employees and contractors recognize fraud
indicators and report suspicions of fraud to the OIG. The briefings are also
designed to educate Amtrak management on the role of the OIG and to foster a
partnership between OIG and management. During this reporting period, 36 fraud
awareness presentations were given to a total of 512 Amtrak employees.


Increased Analytics Capabilities
Digital Computer Forensics Program
During this reporting period, the Office of Investigations established a computer
digital forensics program. In addition to a substantial investment toward building
a computer forensics laboratory and acquiring state-of-the-art forensic hardware
and software, the Office of Investigations has hired a highly qualified and
experienced Special Agent to manage and develop the digital forensics program.
The program is quickly adding great value to our investigative operations.


Data Mining and Data Analysis
The Office of Investigations has also greatly increased the use of data mining and
data analysis tools to enhance proactive efforts to identify fraud vulnerabilities
and indicators of ongoing fraudulent activity in Amtrak programs and operations.
We have also successfully applied data analytics in support of ongoing
investigations.




                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   37
                                                                                                              Union Station, Los Angeles




38   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                             Ongoing Actions To Continuously Improve OIG Operations




Ongoing Actions to Continuously
Improve OIG Operations

We are continually striving to improve our operations in ways that will benefit

the Congress, the Board of Directors and the company. Actions taken include:



•	 Fostering better external communications by developing and regularly
   issuing OIG activity status reports for Congress, Amtrak Management and
   Amtrak’s Board of Directors.
•	 Strengthening external relationships by initiating regular individual outreach
   meetings with the Board of Directors and company executives.
•	 Strengthening our policies and procedures by developing a new annual plan-
   ning process and issuing a revised strategic plan.
•	 Increasing audit, evaluation, and investigative capabilities by initiating
   major efforts to upgrade data analysis tools and to establish a digital comput-
   er forensics program that greatly increases our investigative capabilities.
•	 Strengthening audit operations by creating and filling two new positions:
   Deputy Assistant Inspector General for Audits and Senior Director, Financial
   Audits.
•	 Enhancing the likelihood of criminal prosecution resulting from our investiga-
   tions, by initiating an outreach program through the Department of Justice to
   all United States Attorneys that highlights our renewed investigative capabili-
   ties and priorities.
•	 Concluding work on the National Academy of Public Administration recom-
   mendations made in fiscal year 2010. Their assessment and recommendations
   were aimed at helping us advance our strategic goal of becoming a model
   OIG. We have addressed all issues raised in the assessment and are now
   moving into a mode of continuous operational improvement. We anticipate
   issuing a report summarizing actions we took to implement the recommenda-
   tions in the near future.


We also increased staff capability and capacity by hiring seven new employees.
Staff joining the OIG team during this period are listed below.




                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   39
Ongoing Actions To Continuously Improve OIG Operations




                                Audits

                                Senior Director – Financial Audits, Washington.
                                This individual joined the OIG in September 2012. He began his career with the
                                Comptroller, State of Maryland. He brings to the OIG over 30 years of auditing
                                experience, particularly in the financial area, most of it in the inspector general
                                and transportation industry. He holds a bachelor’s degree from Towson University
                                and is a licensed Certified Public Accountant.

                                Auditor, Philadelphia
                                This individual joined the OIG in July 2012. He was a Senior Director of Finance
                                in the private sector. He brings over seven years of experience as an auditor. He
                                holds a bachelor’s degree in accounting from St. Francis College.


                                Inspections and Evaluations

                                Evaluator, Washington
                                This individual joined the OIG in April 2012. He brings over 14 years of
                                experience in railroad operation. He joined the Metropolitan Transportation
                                Authority (New York) in 1998 and was promoted to senior auditor in 2010.
                                He recently served as an auditor for the Department of Transportation OIG,
                                participating in a full range of audits and evaluations. He holds a bachelor’s
                                degree from Baruch College–City University of New York, and is a Certified
                                Internal Auditor.

                                Principal Operations Analyst, Washington
                                This individual joined the OIG in April 2012. He brings to Amtrak OIG over 39
                                years’ experience, the last two with Amtrak itself. He possesses more than 15
                                years in-depth train operations experience within the railroad industry. He began
                                his career with the Federal Aviation Administration before moving to the railroad
                                industry, working in train operations for Southern Railway Systems. Beginning
                                at Amtrak in 2010, he served as Principal Officer, Service Design, focusing on
                                process improvement in train operations. He holds a bachelor’s degree from
                                Mississippi State, a Master of Business Administration from the University of
                                Southern Mississippi, and a Juris Doctor from Loyola.

                                Investigations

                                Criminal Investigator/Computer Forensics Analysis Officer, Washington
                                This individual joined the OIG in May 2012. He brings 20 years of federal law
                                enforcement experience conducting investigations of fraud and other crimes,


40   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                             Ongoing Actions To Continuously Improve OIG Operations




along with management of field support for technical and computer forensics
services. He served as Special Agent-in-Charge of the Computer Crimes Unit for
the U.S. Postal Service OIG from 2006 through 2010. Since that time he has been
a computer forensics consultant. His career has also included work with the
Defense Criminal Investigative Service and overseas assignments with the Naval
Criminal Investigative Service in the Philippines and Japan. He holds a bachelor’s
degree from East Carolina State University and a master’s degree from North
Carolina State University.


Criminal Investigator, Chicago
This individual joined the OIG in September 2012. He brings an 18-year career
with the Environmental Protection Agency OIG – the last nine and a half years
as Chicago Special Agent-in-Charge. He has extensive experience in dealing with
matters of hazardous waste and materials and is adept at conducting complex
criminal, civil and administrative financial fraud investigations. He earned his
Bachelor of Arts degree from Western Illinois University.

Mission Support

Human Capital Officer, Washington
This individual joined the OIG in April 2012. She began her career at the Financial
Industry Regulatory Authority and brings with her over 14 years of experience,
with a deep focus in benefits administration. She holds a bachelor’s degree
from Howard University and Master of Business Administration from Campbell
University. She is a certified Senior Professional in Human Resources and a
certified Employee Benefits Specialist.


                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   41
page header




                                                                                             30th Street Station, Philadelphia




42   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                                                  Performance Measures
                                                                                                                              Appendix




FY 2012 Performance Measures,
4/1/2012—9/30/2012

Audit/Evaluation Results                                                     Hotline Contacts/Referrals
Reports Issued                                                   10          Sent to Amtrak Management                                        94
Costs Questioned/Unsupported/                                                Request for Assistance by                                          6
Funds to be Put to Better Use (Audit)                $6,103,850a             Law Enforcement Agency
Management Decisions to                                            3         Preliminary Investigation                                          4
Seek Recoveries                                                              Opened
Recoveries (Audit)                                  $24,210,175              Customer Complaint                                               44
                                                                             No Action Warranted                                                9
Investigative Results                                                        Total                                                           157
Financial Impact
Recoveries/Restitution                                     $8,548
                                                                             Advisory Functions
Cases Opened                                                                 FOIAb Requests Received                                          18
Major Misconduct and                                             17          FOIA Appeals Received                                              1
General Crimes                                                               FOIA Requests Processed                                          13c
Proactive Program                                                  4             Referred to Amtrak                                             2
Fraud                                                              3             Response Pending                                               2
Healthcare Fraud                                                   1         FOIA Appeals Processed                                             1
Contract Fraud                                                     2         Legislation Reviewed                                               2
                                                                             Regulations Reviewed                                               0
Judicial and Administrative Actions	
Arrests                                                            3
Indictments                                                        9
Pretrial Diversion                                                 –
Criminal Referrals Accepted                                      19
Criminal Referrals Declined                                        7
Administrative Actions                                           11


Investigative Workload
Cases Open on 4/1/2012                                           54
Investigations Opened                                            27
Investigations Closed                                            15
Cases Open on 9/30/2012                                          66



a 	 Not included in the total amount are the funds to be put to better use identified in Report No. OIG-E-2012-008, (May 21, 2012). Implementing the
    recommendations in this report could allow Amtrak to reduce its fleet requirements by 120 cars and 45 locomotives, resulting in a potential
    savings of almost $600 million in fleet procurement costs over the next 15 years. However, these savings do not account for any additional
    costs potentially required to achieve this improved level of equipment availability.
b 	 Freedom of Information Act
c 	 One FOIA request received by OIG was neither processed nor referred because it was an attempt to extort money from Amtrak and the Rail-
    road Retirement Board and was not a bona fide FOIA request, even though it had been addressed to the OIG FOIA in-box. This FOIA scam was
    referred to the OIG Office of Investigations, with notification to Amtrak’s FOIA Officer regarding disposition.



                       Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012                          43
Appendix 1



     Appendix 1	                 Questioned Costs (Audits)


                                       Audit reports issued with
                                             questioned Costs
                                    Reporting Period: 4/1/2012–9/30/2012

     Category                                                         Number       Questioned Costs      Unsupported Costs
     A. For which no management decision made by                             –                     $–                  $–
         commencement of the reporting period
     B. Reports issued during the                                            3            6,103,850
        reporting period
     Subtotals (A+B)                                                         3            6,103,850




     Less

     C. For which a management decision was made                             3            6,103,850                      –
         during the reporting period
        (1) Dollar value of recommendations agreed to                        –            6,103,850                      –
            by management
        (2) Dollar value of recommendations not agreed                       –                       –                   –
            to by management.
     D. For which no management decision has been                            –        	–                         	–
        made by the end of the reporting period




44   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                                              Appendix 2



Appendix 2 	               Funds To Be Put To Better Use (Audits)


                      Audit reports issued with Funds
                           to be put to better use
                      Reporting Period: 4/1/2012–9/30/2012

Category                                                               Number                Dollar Value
A. For which no management decision has been made by the                       –                       $–
    commencement of the reporting period
B. Reports issued during the                                                   –                         –
   reporting period
Subtotals (A+B)                                                                –                         –




Less

C. For which a management decision was made during the                         –                         –
   reporting period
   (1) Dollar value of recommendations that were agreed to                     –                         –
       by management
   (2) Dollar value of recommendations that were not                           –                         –
       agreed to by management.
D. For which no management decision has been made by the                       –                         –
   end of the reporting period




                  Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   45
Appendix 3



Appendix 3	                   Audit And Evaluation Reports and Testimonies


                                       Detailed Listing of All
                          Issued Audit/Evaluation Reports and Testimony
                                 Reporting Period: 4/1/2012–9/30/2012

                                                                                                                          Funds to
Date            Report                                                 Report               Questioned     Unsupported    be Put to
Issued          Number             Report Title                        Category                  Costs           Costs   Better Use
5/21/2012       OIG-                Mechanical Maintenance:             Train Op-                    $–            $–          $–a
                E-2012-008          Improved Practices Have             erations and
                                    Significantly Enhanced Acela        Business
                                    Equipment Performance and           Management
                                    Could Benefit Performance of
                                    Equipment Company-wide
5/31/2012       OIG-                Strategic Asset Management          Information                    –            –            –
                E-2012-012          Program: Opportunities to           Technology
                                    Improve Implementation and
                                    Lessons Learned
6/29/2012       OIG-                On-Time Performance Incen-          Train Op-           1,430,113               –            –
                A-2012-013          tives: Inaccurate Invoices Were     erations and
                                    Paid                                Business
                                                                        Management
7/19/2012       OIG-                Human Capital Management:           Human Capi-                    –            –            –
                A-2012-014          Weaknesses in Hiring Practices      tal Manage-
                                    Result in Waste and Opera-          ment
                                    tional Risk

8/2/2012        OIG-                Food and Beverage Service:          Train Op-                      –            –            –
                T-2012-015          Opportunities Exist to Build on     erations and
                                    Program Improvement Initia-         Business
                                    tives                               Management
8/14/2012       OIG-                Claims Program: Use of Best         Governance                     –            –            –
                A-2012-016          Practices Would Strengthen
                                    Management Controls
9/5/2012        OIG-                Amtrak Invoice Review: Un-          Train Op-           3,473,737               –            –
                A-2012-019          detected Errors Resulted in         erations and
                                    Overpayments                        Business
                                                                        Management
9/7/2012        OIG-                Food and Beverage Service:          Train Op-                      –            –            –
                A-2012-020          Initiatives to Help Reduce          erations and
                                    Direct Operating Losses Can Be      Business
                                    Enhanced by Overall Plan            Management
9/20/2012       OIG-                Opportunities for Amtrak to         N/A                            –            –            –
                T-2012-022          Build on Its initiatives to Im-
                                    prove Efficiency and Effective-
                                    ness:




46       Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                                                                                  Appendix 3



Appendix 3	                         Audit And Evaluation Reports and Testimonies


                                             Detailed Listing of All
                                Issued Audit/Evaluation Reports and Testimony
                                       Reporting Period: 4/1/2012–9/30/2012

                                                                                                                                                           Funds to
Date               Report                                                             Report                   Questioned         Unsupported              be Put to
Issued             Number                 Report Title                                Category                      Costs               Costs             Better Use
9/21/2012           OIG-                   American Recovery and Re-                  American                 1,200,000                         –                    –
                    A-2012-021             investment Act: Some Ques-                 Recovery and
                                           tioned Invoice Charges and                 Reinvestment
                                           Minimal Benefit from Duplica-              Act
                                           tive Invoice-Review Process
9/27/2012           OIG-                   Annual Financial Statement                 Governance                            –                    –                    –
                    A-2012-017             Audits: Observations for Im-
                                           proving Oversight of the Inde-
                                           pendent Public Accountant

9/27/2012           OIG-                   Railroad Safety: Amtrak is Not             Safety and                            –                    –                    –
                    E-2012-023             Adequately Addressing Ris-                 Security
                                           ing Drug and Alcohol Use by
                                           Employees in Safety-Sensitive
                                           Positions
Total                                                                                                        $6,103,850                        $–                   $–
   a
       Not included in the total amount are the funds to be put to better use identified in Report No. OIG-E-2012-008, (May 21, 2012). Implementing the recommenda-
       tions in this report could allow Amtrak to reduce its fleet requirements by 120 cars and 45 locomotives, resulting in a potential savings of almost $600 million
       in fleet procurement over the next 15 years. However, these savings do not account for any additional costs potentially required to acheive this improved level
       of equipment availability.




                                                       Ongoing Audit and
                                                      Evaluation Projects
                                               Reporting Period: 4/1/2012–9/30/2012

          Project Status                                                                                                           Number of Projects
          Audit and Evaluation Projects In-process at 4/1/2012                                                                                           20

          Projects Postponed or Canceled                                                                                                                   –

          Audit and Evaluation Projects Started Since 4/1/2012                                                                                             7

          Audit and Evaluation Reports Issued Since 4/1/2012                                                                                             10

          Audit and Evaluation Projects In-process as of 9/30/2012                                                                                       17




                                 Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012                             47
Appendix 4


     Appendix 4	 Recommendations for Which Corrective Action
                 Not Complete (Audits)


                    Previous Audit Reports’ Recommendations for Which
                         Corrective Action Has Not Been Completed
                              Reporting Period: 4/1/2012–9/30/2012

                                                                                                                     Funds to
                                                                                    Questioned      Unsupported      be Put to
     Audit Report                                  Report Number/Date                    Costs            Costs     Better Use
     Railroad Invoice Review: SPCSL Report          506-2001/                        $125,957                  $–          $–
     1 of 4                                         August 3, 2001
     Railroad Invoice Review: SPCSL Report          507-2001/                          153,766                  –           –
     2 of 4                                         August 31, 2001
     Railroad Invoice Review: SPCSL Report          508-2001/                          140,377                  –           –
     3 of 4                                         September 12, 2001
     Railroad Invoice Review: SPCSL Report          509-2001/                          282,957                  –           –
     4 of 4                                         September 21, 2001
     Host RRCA and Operations Management            401-2008/                                  –                –           –
     Controls                                       August 21, 2008
     CSX On-Time Performance Incentives:            406-2005/                                  –                –           –
     Inaccurate Invoices and Lack of Amtrak         March 30, 2010
     Management Review Lead to Overpay-
     ments
     American Recovery and Reinvestment Act         912-2010                                   –                –           –
     of 2009: Assessment of Project Risks As-       May 14, 2010
     sociated with Key Engineering Projects
     BNSF On-Time Performance Incentives:           407-2003/                                  –                –           –
     Inaccurate Invoices and Lack of Amtrak         September 24, 2010
     Management Review Lead to Overpay-
     ments
     Strategic Asset Management Program             105-2010/                                  –                –           –
     Controls Design Is Generally Sound, But        January 14, 2011
     Improvements Can Be Made
     On-Time-Performance Incentives: Inaccu-        403-2010/                          519,932                  –           –
     rate Invoices Were Paid Due to Long-stand-     April 21, 2011
     ing Weaknesses in Amtrak’s Invoice-Review
     Process
     Strategic Asset Management Program: Fur-       001-2011/                                  –                –           –
     ther Actions Should be Taken To Reduce         June 2, 2011
     Business Disruption Risk
     American Recovery and Reinvestment Act:        908-2010/                                  –                –   1,400,000
     Infrastructure Improvements Achieved but       June 22, 2011
     Less than Planned
     Americans with Disabilities Act: Leader-       109-2010/                                  –                –           –
     ship Needed to Help Ensure That Stations       September 29, 2011
     Served By Amtrak Are Compliant



48    Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                                                  Appendix 4




               Previous Audit Reports’ Recommendations for Which
                    Corrective Action Has Not Been Completed
                         Reporting Period: 4/1/2012–9/30/2012

                                                                                                                    Funds to
                                                                              Questioned      Unsupported           be Put to
Audit Report                                  Report Number/Date                   Costs            Costs          Better Use
Passenger Rail Investment and Improve-        OIG-A-2012-001/                            –                 –                   –
ment Act of 2008: Amtrak Has Made Good        October 26, 2011
Progress, but Continued Commitment
Needed to Fully Address Provisions
Wireless Network Security: Internal Con-      OIG-A-2012-003/                            –                 –                   –
trols Can Be Improved                         December 7, 2011
On-Time-Performance Incentives: Inaccu-       OIG-A-2012-004/                  9,151,451                   –                   –
rate Invoices Were Paid Due to Weaknesses     February 15, 2012
in Amtrak’s Invoice-Review Process
Incurred-Cost Contract Audit: Contract        OIG-A-2012-006/                            –       2,027,446                     –
Modification Charges for Extended Indirect    February 17, 2012
Overhead Costs Not Supported
Amtrak Corporate Governance: Imple-           OIG-A-2012-007/                            –                 –                   –
menting a Risk Management Framework is        March 30, 2012
Essential to Achieving Amtrak’s Strategic
Goals
On-Time-Performance Incentives: Inaccu-       OIG-A-2012-013                   1,430,113                   –                   –
rate Invoices Were Paid                       June 29, 2012
Human Capital Management: Weaknesses          OIG-A-2012-014                             –                 –                   –
in Hiring Practices Result in Waste and       July 19, 2012
Operational Risk
Claims Program: Use of Best Practices         OIG-A-2012-016                             –                 –                   –
Would Strengthen Management Controls          August 14, 2012
Amtrak Invoice Review: Undetected Errors      OIG-A-2012-019                   3,473,737                   –                   –
Resulted in Overpayments                      September 5, 2012
Food and Beverage Service: Initiatives to     OIG-A-2012-020                             –                 –                   –
Help Reduce Direct Operating Losses Can       September 7, 2012
Be Enhanced by Overall Plan
American Recovery and Reinvestment Act:       OIG-A-2012-021                   1,200,000                   –                   –
Some Questioned Invoice Charges and           September 21, 2012
Minimal Benefit from Duplicative Invoice-
Review Process
Annual Financial Statement Audits: Ob-        OIG-A-2012-017                             –                 –                   –
servations for Improving Oversight of the     September 27, 2012
Independent Public Accountant
TOTAL                                                                       $16,478,290        $2,027,446        $1,400,000




                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012       49
Appendix 5



     Appendix 5	 Recommendations for Which
                 Corrective Action Not Completed (Evaluations)



             Previous Evaluation Reports’ Recommendations for Which
                    Corrective Action Has Not Been Completed
                         Reporting Period: 4/1/2012–9/30/2012


                                                                                              Estimated        Estimated Annual
                                                            Report Number/                       Annual          Savings Already
     Evaluation Reports                                     Date                                Savings                Achieved
                                                            E-05-04/                    $100,000,000+            $38,000,000
     Mechanical Maintenance Operationsb                     September 5, 2005
                                                            E-06-02/                       28,000,000+              4,000,000
     Amtrak Fleet Planning Process                          April 6, 2006
                                                            E-06-04/                                   –                     –
     Facility Maintenance Program                           August 24, 2006
                                                            E-09-03/                       23,000,000+                       –
     Human Capital Management                               May 15,2009
                                                            E-09-05/                       50,000,000+                       –
     Infrastructure Maintenance Program                     September 29, 2009
                                                            E-09-06/                         8,000,000                       –
     Training and Employee Development                      October 26, 2009
     Operation RedBlock: Actions Needed to                  E-11-01/                  	–                                     –
     Improve Program Effectiveness                          March 15, 2011
     Evaluation of Amtrak’s FY 2010 Fleet Strategy: A       E-11-02/                  	–                                     –
     Commendable High-Level Plan That Needs Deeper          March 31, 2011
     Analysis and Planning Integrationb
     Food and Beverage Service: Further Actions             E-11-03/                  	–                                     –
     Needed to Address Revenue Losses Due to Control        June 23, 2011
     Weaknesses and Gaps
     Human Capital Management: Lack of Priority Has         E-11-04/                                   –                     –
     Slowed OIG-Recommended Actions to Improve Hu-          July 8, 2011
     man Capital Management, Training, and Employee
     Development Practices
     Human Capital Management: Controls Over the            OIG-E-2012-009/                            –                     –
     Use of Temporary Management Assignment Need            March 28, 2012
     Improvement




50    Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                                                                       Appendix 5



 Appendix 5	 Recommendations for Which
             Corrective Action Not Completed (Evaluations)



            Previous Evaluation Reports’ Recommendations for Which
                   Corrective Action Has Not Been Completed
                        Reporting Period: 4/1/2012–9/30/2012


                                                                                                            Estimated         Estimated Annual
                                                                   Report Number/                              Annual           Savings Already
 Evaluation Reports                                                Date                                       Savings                 Achieved
 Acela Car Purchase: Future Revenue Estimates                      OIG-E-2012-010/                                    –                             –
 Were Initially Overstated                                         March 28, 2012
 Mechanical Maintenance: Improved Practices                        OIG-E-2012-008/                                    –                             –
 Have Significantly Enhanced Acela Equipment                       May 21, 2012
 Performance and Could Benefit Performance of
 Equipment Company-widec
 Strategic Asset Management Program: Opportu-                      OIG-E-2012-012/                                    –                             –
 nities to Improve Implementation and Lessons                      May 31, 2012
 Learned
 Railroad Safety: Amtrak is Not Adequately Ad-                     OIG-E-2012-023/                                    –                             –
 dressing Rising Drug and Alcohol Use by Employ-                   September 27, 2012
 ees in Safety-Sensitive Positions
 Total                                                                                              $209,000,000+                 $42,000,000+



a Estimated savings based on benchmarking against other organizations.
b Not included in the total amount are the funds to be put to better use identified in Report No. E-11-02 (March 31, 2011). Implementing the
  recommendations in this report would allow Amtrak to reduce its fleet requirements by 53 cars and 25 locomotives over the 30-year planning
  period in Amtrak’s Fleet Strategy, resulting in a potential reduction of over $520 million in procurement and overhaul costs over the lives
  of these additional pieces of equipment. Additionally, implementing the report recommendation to replace its single-level cars with multi-
  level cars would result in the additional reduction of $174 million to $679 million in procurement and overhaul costs over the lives of the
  equipment.
c Not included in the total amount are the funds to be put to better use identified in Report No. OIG-E-2012-008 (May 21, 2012). Implementing
  the recommendations in this report could allow Amtrak to reduce its fleet requirements by 120 cars and 45 locomotives, resulting in a potential
  savings of almost $600 million in fleet procurement costs over the next 15 years. However, these savings do not account for any additional
  costs potentially required to achieve this improved level of equipment availability.




                           Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012                       51
Appendix 6

     Appendix 6	                 Review of Legislation and Regulations

     Reporting Period: 4/1/2012–9/30/2012


     Section 4(a) of the Inspector General Act of 1978, as amended, provides that the Inspector General
     shall review existing and proposed legislation and regulations relating to programs and operations
     of such establishment and to make recommendations in the semiannual reports concerning the
     impact of such legislation or regulations on the economy and efficiency in the administration of
     such programs and operations administered or financed by such establishment or the prevention
     and detection of fraud and abuse in such programs and operations

     In addition, the OIG continued to work with Congress to ensure that taxpayer funds provided
     to Amtrak are protected by law from fraud, waste, and abuse. In 2011, as part of our efforts
     to enhance our investigative and operational tools, we began discussions with Congress and
     submitted proposed legislation related to our operations. Unfortunately, although there was broad
     bipartisan support for the OIG’s proposed legislative provisions which were added to the text of
     the House and Senate versions of the surface transportation bill (H.R. 7, S. 1813), the conferees did
     not include any of the rail-related provisions in the final conference report that was signed into law
     on July 6, 2012. It is our understanding from discussions with Congressional staff that the reasons
     for non-inclusion of these OIG related provisions in the final bill were not related to their merits or
     need, but instead other legislative factors.

     As a result, the OIG will continue to work with Congress to enact these important legislative
     provisions into law. These provisions would

     •	 Apply certain provisions of Title 18 to Amtrak and the OIG to ensure that the federal funding
        Amtrak receives is protected from fraud, waste, and abuse;
     •	 Clarify that claims and statements made to Amtrak are considered claims and statements under
        the False Claims Act to ensure the OIG has the necessary tools to protect the government and
        taxpayer dollars from fraud;
     •	 Extend qualified immunity to Amtrak OIG personnel to ensure that performance of their statu-
        tory duties is not hindered by the threat of litigation and liability; and
     •	 Authorize the OIG to take advantage of the General Services Administration’s programs de-
        signed to conserve federal resources, reduce expenses, and increase efficient operations.

     These proposed provisions remain essential to the OIG’s operational improvements.




52    Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                                             Appendix 7

Appendix 7	             Peer Review Results

Reporting Period: 4/1/2012–9/30/2012


The Dodd–Frank Wall Street Reform and Consumer Protection Act (P. L. 111-203, July 21, 2010)
requires each Office of Inspector General (OIG) to include in its Semiannual Report to Congress
the results of any peer review conducted by another OIG during the reporting period, or—if
no peer review was conducted—a statement identifying the date of the last peer review. Also
required is a list of all peer reviews conducted by the OIG of another OIG, and the status of any
recommendations made to or by the OIG.

A review of the Amtrak OIG’s Office of Audits was conducted by the Inspector General of the Legal
Services Corporation for the year ended September 30, 2008. All recommendations have been
implemented.

We have not performed a peer review of any other OIG organization.

An external peer review for the Office of Audits is scheduled to be conducted by the Tennessee
Valley Authority OIG.

An external peer review of the Office of Investigations will be conducted by the Nuclear Regulatory
Commission OIG beginning in March 2013.




                 Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   53
Glossary




     Glossary of Audit Terms and Abbreviations
     The terms the OIG uses in reporting audit statistics are defined below:


     Questioned Cost – Cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an
     alleged violation of Amtrak’s corporate policy or procedure.
     Unsupported Cost – Cost that is not supported by adequate documentation at the time of the audit.
     Funds to Be Put to Better Use – Funds identified in an audit that could be used more effectively by taking greater
     efficiency measures.
     Management Decision – Management’s evaluation of the OIG audit finding and its final decision concerning
     agreement or non-agreement with the OIG recommendation.

     Abbreviations/acronyms used in the text are defined below:




                                                       ARRA	     American Recovery and Reinvestment Act
                                                       CEO 	     Chief Executive Officer
                                                       CFO	      Chief Financial Officer
                                                       FRA	      Federal Railroad Administration
                                                       IPA	      Independent Public Accountants
                                                       OIG 	     Office of Inspector General
                                                       PTC	      Positive Train Control
                                                       RCM	      Reliability-Centered Maintenance
                                                       SAM	      Strategic Asset Management




54    Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
                                                                                           Reporting Requirements
                                                                                                        Appendix




Reporting Requirements Index

Office of Inspector General




           INDEX OF REPORTING REQUIREMENTS PURSUANT TO THE INSPECTOR GENERAL ACT


Topic/Section       Reporting Requirement                                                                         Page
4(a)(2)             Review of Legislation and Regulations                                                           52

5(a)(1)             Significant Problems, Abuses, and Deficiencies                                              13-37
                    Recommendations for Corrective Action to Significant
5(a)(2)                                                                                                         13-37
                    Problems
                    Previous Reports’ Recommendations for Which Corrective
5(a)(3)                                                                                                         48-51
                    Action Has Not Been Completed

5(a)(4)             Matters Referred to Prosecutive Authorities                                                     43

5(a)(5)             Information Assistance Refused or Not Provided                                                 n/a

5(a)(6)             Audit Reports Issued in This Reporting Period                                               46-47

5(a)(7)             Summary of Significant Reports                                                                  13

5(a)(8)             Audit Reports with Questioned Costs                                                             44
                    Audit Reports with Recommendations That Funds Be Put
5(a)(9)                                                                                                             45
                    To Better Use
                    Previous Audit Reports Issued with No Management
5(a)(10)                                                                                                        44-45
                    Decision Made by End of This Reporting Period

5(a)(11)            Significant Revised Management Decisions                                                       n/a
                    Significant Management Decisions with Which the OIG is
5(a)(12)                                                                                                           n/a
                    in Disagreement
                    Federal Financial Management Improvement Act-related
5(a)(13)                                                                                                           n/a
                    Reporting

5(a)(14-16)         Peer Review Results                                                                             53




                  Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   55
            www.amtrakoig.gov




56   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012
OIG Mission:
and CONTACT INFORMATION

Amtrak OIG’s Mission
The Amtrak OIG’s mission is to:
•	 conduct and supervise independent and objective audits, inspections,
   evaluations, and investigations relating to Amtrak programs and operations;
•	 promote economy, effectiveness, and efficiency within Amtrak;
•	 prevent and detect fraud, waste, and abuse in Amtrak’s programs and
   operations; and
•	 review and make recommendations regarding existing and proposed
   legislation and regulations relating to Amtrak’s programs and operations.


Obtaining Copies of OIG Reports and Testimony
		     Available at our website: www.amtrakoig.gov.



To Report Fraud, Waste, and Abuse
		Report suspicious or illegal activities to the OIG Hotline
 	 (you can remain anonymous):

		Web: www.amtrakoig.gov/hotline
		Phone: 800-468-5469



Congressional and Public Affairs
	  E. Bret Coulson,
	  Senior Director
	  Public Affairs Congressional and Public Affairs
	
		Mail:
		Amtrak OIG
		 10 G Street, N.E., 3W-300
		 Washington, DC 20002
		Phone: 202-906-4134
		Email: bret.coulson@amtrakoig.gov




                  Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2012– September 30, 2012   57
         National Railroad Passenger Corporation
                 Office of Inspector General
10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285
                     www.amtrakoig.gov

    Amtrak is a registered service mark of the National Railroad Passenger Corporation
